IN THE SUPREME COURT OF THE UNITED STATES
No. 20-7065

ANIBAL CANALES, JR., PETITIONER,
Vv.
BOBBY LUMPKIN, RESPONDENT.

CERTIFICATE OF SERVICE

I, Alexis Hoag, counsel for amici curiae, hereby certify that on this 8th day of
March, 2021, I caused a copy of the Brief of Arizona Capital Representation Project,
Capital Appeals Project, Capital Post-Conviction Project of Louisiana, Center for
Death Penalty Litigation, Georgia Resource Center, Justice 360, Louisiana Capital
Assistance Center, Mississippi Office of Capital Post-Conviction Counsel, and
Promise of Justice Initiative as Amici Curiae in Support of Petitioner to be served
via email on the following counsel:

Matthew H. Frederick

Deputy Solicitor General

Office of the Attorney General
PO Box 12548, Capitol Station
Austin, TX 78711-2548

(512) 936-6407

(512) 474-2697 (fax)

matthew. frederick@oag.texas.gov

Alexis Hoag

Associate Research Scholar &
Lecturer

Columbia Law School

435 West 116th Street, Ste 605
New York, NY 10027

(212) 853-2090
alexis.hoag@law.columbia.edu
